BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief in Support of Certiorari in 20953, Michael D. Ellis v. Liberty Life Assurance
Company of Boston, a New Hampshire corporation, was
sent via Next Day Service to the U.S. Supreme Court,
and via Next Day and e-mail service to the following
parties listed below, this 8th day of April, 2021:
Byrne J. Decker
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
Two Monument Square, Suite 703
Portland, ME 04101
(207) 387-2963
b .decker@ogletree.com
Counsel for Respondent
Matthew W.H. Wessler
Jonathan E. Taylor
Counsel of Record
Gupta Wessler PLLC
1900 L Street NW
Suite 312
Washington, DC 20036
(202) 888-1741
jon@guptawessler.com

BECKER GALUI.GHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Shawn E. McDermott
Timothy M. Garvey
McDermott Law, LLC
4600 S Ulster Street
Suite 800
Denver, CO 80237
(303) 964-1800

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 8, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Stale of Oh •

My Commlsston Expir1;s
r tlbruary 14, 202.3

